                        U.S. Department of Agriculture
                           Office of Inspector General




Rural Utilities Service Controls Over Water
 and Waste Disposal Loans and Grants




                                 Audit Report 09601-1-At
                                        September 2010
                                 U.S. Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250



DATE:          September 30, 2010


REPLY TO
ATTN OF:       09601-1-At

TO:            Jonathan Adelstein
               Administrator
               Rural Utilities Service

ATTN:          John Purcell
               Director
               Financial Management Division

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Rural Utilities Service Controls Over Water and Waste Disposal Loans and
               Grants


This report presents the results of the subject audit. Your written response to the draft report, dated
September 29, 2010, is attached with excerpts and the Office of Inspector General’s (OIG) position
incorporated into the relevant Finding and Recommendation sections of the report.

We agree with management decision on five of the report’s six recommendations. However, we
are unable to accept management decision on Recommendations 5. Documentation and/or actions
needed to reach management decisions for this recommendation is described in the OIG Position
section of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementing the
recommendation for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your agency’s internal procedures in forwarding documentation for final action to the
Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during this
audit.
Table of Contents

Executive Summary...................................................................................... 1
Background & Objectives............................................................................ 3
   Background ................................................................................................ 3
   Objectives ................................................................................................... 4
Section 1: RUS State Office Officials Could Enhance Agency Policies
......................................................................................................................... 5
   Finding 1: A Special Income Survey is Needed to Determine the
   Appropriate Interest Rate and Grant Amount for One Borrower........ 5
         Recommendation 1 ............................................................................. 6
         Recommendation 2 ............................................................................. 6
         Recommendation 3 ............................................................................. 6
   Finding 2: The Alabama Rural Development State Office Did Not
   Adequately Document Evidence of a Health or Sanitary Problem
   Prior to Awarding Grant Funds................................................................ 7
         Recommendation 4 ............................................................................. 9
         Recommendation 5 ........................................................................... 10
   Finding 3: RUS’ Current Method for Allocating Funds May Not
   Target Communities Nationwide With the Greatest Need ................. 10
         Recommendation 6 ........................................................................... 12
Scope and Methodology ............................................................................ 13
Exhibit A: Summary of Monetary Results ............................................... 15
Exhibit B: Sample of Sites Visited............................................................ 16
Agency’s Response .................................................................................... 17
Rural Utilities Service Controls Over Water and Waste Disposal Loans
and Grants

Executive Summary
Through its water and waste disposal system loan and grant program, the Rural Utilities Service
(RUS) provides direct loans, guaranteed loans, and grants for water, sewer, storm water, and
solid waste disposal facilities in cities and towns with 10,000 or less inhabitants. The Office of
Inspector General (OIG) initiated this audit to evaluate the controls in place to provide direct
loans and grants to rural communities.

We reviewed the direct loan and grant program, which had obligations of $6.18 billion
nationwide from fiscal years (FY) 2005 through 2008. Our review covered the States of
Tennessee, Alabama, and Minnesota, which accounted for $484 million in direct loan and grant
obligations during those years.

Generally, we found RUS’ internal controls to be adequately designed and operating for the
locations we reviewed. However, we identified two instances where RUS officials could
enhance agency procedures for approving water and waste disposal system loans and grants.

   ·   Rural Development officials in Tennessee did not require a special income survey to
       determine the appropriate interest rate and level of grant funding obligated to the City of
       Crossville, Tennessee. Tennessee State agency officials initially inquired whether a
       special income survey was needed but deferred to the judgment of the area director, who
       concluded that a survey was not needed because the area was designated as rural. By
       deferring to the area director and not requesting additional information to support the
       income of the area, the Tennessee Rural Development State Office may have assigned an
       incorrect interest rate to a $1.2 million loan to the City of Crossville, as well as obligated
       $800,000 in grant funds that the city may be ineligible to receive.
   ·   Rural Development officials in Alabama did not adequately document evidence of health
       or sanitary problems to justify awarding seven applicants a higher percentage of grant
       funds. This occurred because State officials did not believe that specific evidence, i.e., a
       violation letter from a health regulatory body, was needed to prove that the health or
       sanitary problems existed. By not requiring adequate evidence to ensure that projects
       were necessary to alleviate a health or safety problem, the Alabama Rural Development
       State Office may have obligated more than $7.2 million in grant finding than was
       allowable for seven projects. Officials in the other States we reviewed (Tennessee and
       Minnesota) were aware that such a letter was needed to provide evidence of a health or
       sanitary problem.

During the course of our review, the American Recovery and Reinvestment Act of 2009
(Recovery Act) was passed. As a result, we expanded our scope to gain an understanding of how
program operations and internal controls were affected by the Recovery Act. We identified a
concern with the method RUS uses for allocating funds, which may impact administration of
Recovery Act funds. We recommended that RUS apply additional criteria for allocating the
approximately $3.8 billion in funds included in the Recovery Act for loans and grants for water


   Audit Report 09601-1-At                                                                           1
and waste disposal systems in rural areas. Loan and grant funds are allocated to each Rural
Development State office based on a formula that uses the demographics of rural population,
rural population below the poverty line, and nonmetropolitan unemployment. Although we
agree with the use of these specific demographics, we believe that additional criteria should be
used (e.g., a threshold of priority points). On June 5, 2009, we issued a Fast Report to alert
agency management of the issue. In a response dated June 26, 2009, Rural Development did not
agree, stating that its current allocation method is required by statute and is fair. We have not yet
performed an analysis to determine the extent to which Rural Development may be funding
water and waste disposal projects that are less in need of its assistance to the detriment of
projects that are more in need of its assistance. This type of analysis will be part of our
examination, which was initiated in September 2009, of the use of Recovery Act funding for this
program.

Recommendation Summary

We recommend that RUS require the City of Crossville to conduct a special income survey for
its project to determine the median household income of the service area and to use this
information to adjust the loan interest rate and grant amount according to the results of that
survey. Also, we recommend that RUS deobligate the more than $7.2 million in excess grant
funds awarded to the seven projects in Alabama.

Agency Response

In RUS’ September 29, 2010, response to the draft report, the agency generally agreed with
Findings 1and 2, but provided an alternative action plan to conducting a special income survey
for Recommendations 1 through 3. RUS agreed with Recommendations 4 and 5. Applicable
sections of the response have been included in the recommendations section for each finding.
RUS’ entire response to the draft report is included at the end of this report.

OIG Position
We accept the management decisions for Recommendations 1 through 4 and 6. The actions
needed to reach management decision on Recommendation 5 are provided in the OIG Position
section for this recommendation.




   Audit Report 09601-1-At                                                                         2
Background & Objectives

Background
The United States Department of Agriculture Rural Development administers the water and
wastewater loan and grant program to improve the quality of life and promote economic
development in rural America. This assistance is available through Rural Development’s Rural
Utilities Service programs, which fund water and wastewater systems, including solid waste
disposal and storm drainage, in rural areas and in cities and towns with a population of 10,000 or
less. Funds are available to public entities such as municipalities, counties, special-purpose
districts, and Indian tribes. In addition, funds may be made available to corporations operated on
a not-for-profit basis. Priority is given to public entities in areas with less than 5,500 people to
restore a deteriorating water supply, or to improve, enlarge, or modify a water facility or an
inadequate waste facility. Also, preference is given to requests which involve the merging of
small facilities and to those serving low- income communities.

The water and waste disposal system loan and grant program was authorized by Section 306 of
the Consolidated Farm and Rural Development Act of 1972, as amended. Loan and grant funds
may be used to (1) construct, repair, modify, expand, or otherwise improve water supply and
distribution systems and waste collection and treatment systems, including storm drainage and
solid waste disposal facilities; (2) acquire needed land, water sources, and water rights; and
(3) pay costs such as legal and engineering fees when necessary to develop the facilities.

To receive loan assistance the borrower must be a public entity. This can include municipalities,
Indian tribes, and corporations not operated for profit. Applicants must (1) be unable to obtain
the needed funds from commercial sources at reasonable rates and terms; (2) have the legal
capacity to borrow and to repay loans, to pledge security for loans, and to operate and maintain
the facilities; and (3) propose facilities that are consistent with any development plans of the
State, multi- jurisdictional area, counties, or municipalities where the project is to be located. All
facilities must comply with Federal, State, and local laws, including those involving zoning
regulations, health and sanitation standards, and water pollution control. For loans, three
different interest rates are used—market, intermediate, and poverty—based on the community’s
affluence. 1

As part of the total project costs, grants may also be provided in lieu of loans, to reduce user
costs to a reasonable level. Such grants fund a maximum of 75 percent of eligible project costs.
A project may qualify for a grant up to 75 percent of the total project cost if the median
household income of the service area is below the higher of the poverty line or 80 percent of the
State median household income (SNMHI) and the project is necessary to alleviate a health or




1
  Tit le 7 Code of Federal Regulations (C.F.R.) 1780.13 (a): The poverty interest rate will not exceed 5-percent
annually. The intermediate interest rate will be set at the poverty rate plus one-half of the difference between the
poverty rate and the market rate, not to exceed 7-percent per annum. The market rate will be set using as guidance
the average of the Bond Buyer (11-GO Bond) index for the 4-weeks prior to the first Friday of the last month before
the beginning of the quarter.


    Audit Report 09601-1-At                                                                                        3
sanitary problem. 2 Projects that will serve residents with incomes between 80 and 100 percent of
the SNMHI can qualify for grant funding of up to 45 percent of the total project costs whereas
projects with incomes exceeding 100 percent of the SNMHI are ineligible for grant funding. 3
During the course of our review, the Recovery Act was passed to provide additional loan and
grant funds for water and waste disposal projects. 4 As a result, we expanded our scope to
include determining how current program operations were impacted by the Recovery Act. The
Recovery Act included approximately $3.8 billion in funds for water and waste disposal systems
loans and grants in rural areas. Congress, in enacting the Recovery Act, emphasized the need for
accountability and transparency in the expenditure of the funds. Further, on February 18, 2009,
the Office of Management and Budget (OMB) issued initial guidance that required Federal
agencies to establish rigorous internal controls, oversight mechanisms, and other approaches to
meet the accountability objectives of the Recovery Act. 5 On March 30, 2009, Rural
Development notified the State offices that Recovery Act funds were available for the water and
waste disposal loan and grant program.

From March 30, 2009, through July 2, 2010, the Rural Utilities Service (RUS) obligated
$2.6 billion in grants and loans with Recovery Act funds. Our role, as mandated by the
Recovery Act, is to oversee agency activities to ensure funds are expended in a manner that
minimizes the risk of improper use.

Objectives
The overall audit objective was to evaluate internal controls governing the provision of loans and
grants to rural communities under the RUS water and waste disposal system loan and grant
program. Specifically, we determined (1) if borrowers receiving direct loans and grants met
eligibility requirements and (2) if there was adequate oversight to ensure that loan and grant
funds were being used for their intended purposes.

After the enactment of the Recovery Act, we expanded the objective of this audit to gain an
understanding of how program operations may be impacted by the Recovery Act.




2
  The mediu m household income is calculated by the United States Census Bureau and updated in each decennial
census. The service area is the area that can be reasonably serviced by the project. The SNM HI is the median
household inco me of the State’s nonmetropolitan counties and portions of metropolitan counties outside of cit ies,
towns, or places of 50,000 or more population.
3
  7 C.F.R. 1780.10 (b)(2).
4
  Public Law 111-5, dated February 17, 2009.
5
  On April 13, 2009, OM B issued, “Updated Implementing Gu idance for the A merican Recovery and Reinvestment
Act of 2009.”


    Audit Report 09601-1-At                                                                                       4
Section 1: RUS State Office Officials Could Enhance Agency Policies

Finding 1: A Special Income Survey is Needed to Determine the
Appropriate Interest Rate and Grant Amount for One Borrower
Rural Development officials should have required a special income survey to determine financial
need prior to approving a loan and grant for a water/waste project in Crossville, Tennessee. 6, 7
State officials initially questioned the income of the residents of the service area due to the land
and lot prices within the area. However, the responsible area director stated that a special
income survey was unnecessary because the area was designated rural. State office officials
stated they deferred to the judgment of the area director because they stated he knew the area
better than they did. As a result, the City of Crossville may have received an incorrect interest
rate for a $1.2 million loan and may not have been eligible for grant funds totaling $800,000. 8

Federal regulations state that grant funds may not be used to pay any costs of a project when the
median household income of the service area is more than 100 percent of the nonmetropolitan
median household income of the State. 9 If the median household income of the service area is
more than 100 percent of the nonmetropolitan median household income, then the project could
only receive the market interest rate on loans, not the intermediate or the poverty rate.

In order to determine the median household income of the service area, Rural Development used
data from the 2000 decennial census. Though this was a reasonable first step, these data are
unlikely to be up-to-date because the project area is a new development built after the 2000
census. Regulations state that if there is reason to believe that the census data are not an accurate
representation of the median household income within the area to be served, other relevant data
may be obtained, such as a survey. 10 Special income surveys are conducted by an outside party.
Through activities such as phone calls or door-to-door surveys, they determine the median
household income of the service area. These independent surveys can be used as relevant data to
dispute the census reported income of a service area. Other applicants in the State of Tennessee
have successfully used special income surveys to dispute the census information reported for
their service areas. 11 However, we found no cases where Tennessee State officials had
questioned a service area and chosen to perform special income surveys.

During the approval process for this loan and grant, one State Rural Development official wrote
in an email to the area specialist and in the loan and grant file that a special income survey may

6
  A special inco me survey is inco me data collected by an independent third party for the purpose of determining the
true med ian household income o f the service area.
7
  Tennessee Rural Develop ment officials informed us on July 6, 2010, that they have not yet disbursed any loan or
grant funds to the City of Crossville for this project. Since these funds have not been disbursed, RUS has the
opportunity to defer or delay the disbursement until a special inco me survey is conducted, revise the interest rate as
appropriate, and deobligate the grant funds, if appropriate.
8
  The project was obligated in fiscal year (FY) 2008.
9
  Tit le 7, C.F.R. 1780.10b.
10
   Tit le 7, C.F.R. 1780.1b.
11
   For example, the Hillsboro, Burwood, & Tho mpson’s Station Utility District disputed the SNMHI reported by the
2000 census of $57,185 fo r their service area and submitted a special inco me survey conducted by the Greater
Nashville Reg ional Co mmission showing that the income of the service area was actually $18,751. The State office
used the $18,751 figure when determin ing their interest rate and grant amount.

    Audit Report 09601-1-At                                                                                          5
be necessary because lot and house prices may indicate a higher median income level than that of
the latest decennial census in 2000. The median household income for the proposed project was
$28,321 according to the 2000 census, while the average listing price for property in that service
area (subdivision) was more than $278,000. 12 This is an indicator that Rural Development could
have used to strongly consider a special income survey. However, the area director stated that a
special income survey was not necessary because the housing development was located in a rural
area. The State official stated that he deferred judgment to the area director because he believed
the area director knew the service area best.

Our review of the City of Crossville’s loan and grant application also found that the residents of
the community committed $3 million to help fund the project. Due to the average listing price of
homes in the development and the ability of the residents to raise $3 million for the project,
Rural Development should have conducted a special income survey to determine the
development’s median income and the appropriate interest rate and grant amount. We believe
that a special income survey also would have likely determined that the representative median
income in the service area exceeded the SNMHI of $37,269. Accordingly, the project would
have been ineligible for grant funding for up to 75 percent and would cause the interest rate on
the loan would have likely increased.

Recommendation 1
Require the borrower to conduct a special income survey for the project to determine the median
household income of the service area and use this information to determine the loan interest rate
and grant amount applicable for this project.

Recommendation 2
If the special income survey results in an adjustment to median household income, adjust the
loan rate accordingly and require the borrower to reimburse RUS for any loss of interest revenue.

Recommendation 3
If the special income survey shows the borrower to be ineligible for the grant, deobligate or
recover the $800,000 in grant funds, as appropriate.

Agency Response to Recommendations 1 through 3

In its September 29, 2010, response, RUS stated the following:

        Conducting an income survey for this project would be difficult and costly to the Agency
        and the community. It has been more than 2 years since the underwriting on this loan
        was conducted. It would be difficult to conduct an income survey at this point that would
        accurately reflect incomes at the time. Factors, such as the downturn in the economy and
        the housing market, changes in residents since 2008, and in- migration of retirees to this
        community from other parts of the country would likely impact the results of the survey.

12
  Ho mes in the development listed for $278,054 on average according to a listing of properties with homes as of
December 5, 2008.

     Audit Report 09601-1-At                                                                                       6
           The Agency cannot require the applicant to conduct and pay for the survey; therefore, the
           cost of any such undertaking would be incurred by the Agency. Typically, an income
           survey approved by USDA Rural Development would require a sampling of 80 percent
           of the property owners in the area to be served. Associated survey costs could be
           significant.

           Independent of the audit findings, the Agency was notified that, due to a favorable
           bidding climate, bids received on the project were lower than anticipated and that the
           grant funds for the project will not be needed. Accordingly, those funds have been
           deobligated. In addition, we have reviewed the case file and believe that [the]
           appropriate interest rate was offered. * * *

           Given the deobligation of grant funds, the Agency’s review and the cost and complicating
           factors associated with a survey more than 2 years after the original underwriting, we
           would offer an alternative to conducting a survey. As an alternative to the
           recommendations presented, the Agency would propose to issue additional staff guidance
           on the appropriate circumstances for conducting income surveys. This guidance will be
           drafted and delivered to staff no later than March 31, 2011. The Agency will also
           incorporate this new guidance into its training course content.

OIG Position

We accept management decision for these Recommendations.

Finding 2: The Alabama Rural Development State Office Did Not
Adequately Document Evidence of a Health or Sanitary Problem Prior
to Awarding Grant Funds
The Alabama Rural Development State Office awarded grant funds to seven grantees without
adequate evidence that the projects were necessary to alleviate a health or sanitary problem.
Alabama Rural Development officials believed that a violation letter from a regulatory agency
was not necessary to prove the existence of a health or sanitary problem, as the RUS regulation
does not specifically define what evidence is needed. Since we confirmed that some of the
projects were not necessary to alleviate a health or sanitary problem and Rural Development
officials had no support that other projects were necessary, we questioned the obligations of over
$7. 2 million in grant funds for those projects (see exhibit A).

A project can qualify for a grant up to 75 percent of the total project cost if the median household
income of the service area is below the higher of the poverty line or 80 percent of SNMHI and
the project is necessary to alleviate a health or sanitary problem. Projects with incomes between
80 and 100 percent of SNMHI can qualify for grant funding up to 45 percent of the total project
costs whereas projects with incomes exceeding 100 percent of SNMHI are ineligible for grant
funding. 13 Although the regulation states that in order to receive more than 45 percent of total
project costs in grant funding the project must be necessary to alleviate a health or sanitary


13
     Tit le 7, C.F.R. 1780.10 (c).

       Audit Report 09601-1-At                                                                      7
problem, it does not define what specific evidence is sufficient to prove the necessity. The
Office of Inspector General (OIG) contacted a RUS official to obtain this definition and were
told that sufficient evidence would consist of a violation letter from a regulatory agency, such as
the health department. RUS officials also stated that revised guidance is necessary to require
violation letters.

During our review of project applications for the State of Alabama, we found that seven out of
the eight projects that received grant funds in excess of 45 percent of total project costs lacked
adequate evidence indicating that the project was necessary to alleviate a health or sanitary
problem (i.e., violation letters). 14 Application files for three of the seven borrowers did contain
letters from local health departments stating general support for those projects. We contacted
these local health departments to determine if the projects were necessary to alleviate a health or
sanitary problem. Local health department officials informed us that while they supported the
projects and provided support letters to Rural Development, the projects were not necessary to
alleviate health or sanitary problems. For example, the local health department in Greene
County wrote a letter in support of the Greene County Water and Sewer Authority project to
build a county water system for the service area. However, the health department official who
wrote the letter informed us that although private wells in the service area occasionally contained
bacteria, they were able to correct the problem by chlorinating the wells. We asked if he felt the
project was necessary to alleviate the health or sanitary problem; he stated it was not.

Alabama Rural Development officials stated that they did not believe a violation letter was
necessary to document a health or sanitary problem. The officials believed health or sanitary
problems existed for these projects because they either received support letters from local health
departments or the preliminary engineering report cited a deficiency in the existing water
system. 15 For example, a deficiency from an engineering perspective may be that (1) water
drains too slowly in the project area or (2) that bacteria were noted in the water. However, this
would not by itself be considered sufficient evidence of a health or sanitary problem. We
contacted RUS national office officials to obtain clarification of what is considered acceptable
evidence to support this condition. RUS officials informed us that proper evidence would be a
health or sanitary violation letter from a regulatory body. Furthermore, it was represented to the
OIG that the need to include violation letters to support projects receiving more than 45 percent
of total project costs in grant funding was common knowledge among the staff at the Minnesota
and Tennessee State offices, the other two State offices we visited.

By not requiring adequate evidence to ensure that the projects were necessary to alleviate a
health or sanitary problem, the Alabama Rural Development State Office may have obligated
more than $7.2 million in grant funding than was allowable for seven projects. See Table 1
below for the grant amount awarded to the borrowers and the percentage of total project
compared to eligible percentage and grant amount.


14
   The eighth project file included a consent order fro m the environ mental management agency for the State; this is
the equivalent of a violation letter fro m a health depart ment as it proves the project is necessary to correct a health or
sanitary problem.
15
   Preliminary engineering reports are documents prepared by an engineer hired by the borrower. They should
clearly describe the owner’s present situation, analyze alternatives, and propose a specific course of action, fro m an
engineering perspective.

     Audit Report 09601-1-At                                                                                              8
       Table 1: Grant Funding in Excess of Allowable Amount
                         Total                            Eligible   Eligible     Ineligible
                                      Grant      Grant
       Borrower         Project                            Grant      Grant         Grant
                                     Amount     Percent
                         Cost                             Percent    Amount        Amount
    Greene County
    Water and          $8,874,834 $5,974,834      67%       45%      $3,993,675   $1,981,159
    Sewer Authority
    Town of Berry      $3,038,830 $1,801,830      59%       45%      $1,367,474    $434,357
    Waterworks and
    Sewer Board of
                       $3,628,000 $2,236,000      62%       45%      $1,632,600    $603,400
    the Town of
    Collinsville
    Perry County
                       $5,043,900 $3,717,900      74%       45%      $2,269,755   $1,448,145
    Water Authority
    Town of
                       $3,702,000 $2,702,000      73%       45%      $1,665,900   $1,036,100
    Somerville
    Sumter County
                       $2,915,000 $1,985,000      68%       45%      $1,311,750    $673,250
    Sewer Authority
    West Dallas
    Water
    Authority-         $4,024,000 $2,871,000      71%       45%      $1,810,800   $1,060,200
    Safford River
    Oak
    Total Ineligible                                                              $7,236,611


Recommendation 4
Strengthen program guidance to include language which specifies what documentary evidence is
required to prove a project is necessary to alleviate a health or sanitary problem.

Agency Response

In its September 29, 2010, response, RUS stated the following:

   The Agency will draft revised guidance regarding the specific documentary [evidence] that is
   required to prove a project is necessary to alleviate a health or sanitary problem. This
   guidance will be delivered to staff no later than March 31, 2011. The Agency will also
   incorporate this new guidance into its training course content.

OIG Position
We accept management decision for this Recommendation.




   Audit Report 09601-1-At                                                                     9
Recommendation 5
Review the cases above and determine if the projects were necessary to alleviate a health or
sanitary problem. If the Agency review concludes the projects were not necessary to alleviate
the cited problems, deobligate the $7,236,611 in grant funds for the seven projects and require
the applicants to reimburse RUS for excessive grant funds expended.

Agency Response

In its September 29, 2010 response, RUS stated the following:

           The Agency will review the cases above and determine if the project was necessary to
           alleviate a health or sanitary issue. The review will be completed by October 31, 2010.
           If the Agency determines that the project was not necessary to alleviate a health or
           sanitary issue, the Agency will seek reimbursement for funds as necessary.

           *       *        *        *        *        *         *        *         *         *        *        *

OIG Position

Although RUS agreed with this Recommendation, we need additional information before we can
reach management decision. RUS needs to provide copies of the final determination made for
the questioned grant funds for each project or its justification for not pursuing recovery of the
questionable amounts before we can accept management decision.

Finding 3: RUS’ Current Method for Allocating Funds May Not Target
Communities Nationwide With the Greatest Need
During the course of our review, the Recovery Act was passed. As a result, we expanded our
scope to gain an understanding of how program operations and internal controls were impacted
by the Recovery Act.

During our review we identified a concern with the method RUS uses for allocating funds, which
may impact administration of Recovery Act funds for the water and waste disposal system
program. RUS’ plan to fund projects is twofold: (1) finance projects in its backlog of
applications which are “shovel ready,” i.e., applications are completed and funds are ready to be
obligated; and (2) allocate the remaining Recovery Act funds to States using their normal
allocation formula, which includes 10 percent of the Recovery Act funds being held in the
national office for projects in designated persistent poverty counties. 16 RUS officials informed
us that this allocation method is statutory. According to the statute, “The Secretary shall allocate
the amounts in each account specified in subsection (C) among the States in a fair, reasonable,
and appropriate manner that takes into consideration rural population, levels of income,
unemployment, and other relevant factors, as determined by the Secretary.” 17 Since the statute
does not prescribe the formula to be used for allocating funds and allows the use of other

16
     RUS was unable to provide us with a list of projects with co mpleted applications that were ready to be funded.
17
     Consolidated Farm and Rural Develop ment Act of 1961, section 381E (f), “A llocation A mong States.”

       Audit Report 09601-1-At                                                                                         10
relevant factors, we concluded that Rural Development should consider the relative merit of
projects nationwide, not just within a State, when selecting water and waste disposal projects to
fund with Recovery Act funding. This is consistent with the Secretary’s “American Recovery
and Reinvestment Act (ARRA) Obligation Clearance” memorandum dated March 23, 2009,
which states, in part, that the agency is to ensure that Recovery Act funds are distributed on the
merit of the proposed project rather than historical formulae or oral promises.

Rural Development personnel assign priority points to water and waste disposal projects based
on criteria including health hazards or income of the area. For example, a project will receive
30 points if the median household income of the service area is below the poverty line and an
additional 25 points if it also alleviates an emergency situation, such as meeting Safe Drinking
Water Act requirements. We believe that the priority points assigned to a project should be
considered a relevant factor when awarding Recovery Act funds among projects nationwide.
RUS should establish a threshold of merit (e.g., 50 priority points) that a project must meet to be
eligible for Recovery Act funds.

Without considering the relative merit of projects on a nationwide basis, Recovery Act funds
may not go to those projects which show the greatest need. Of the 193 projects selected to
receive Recovery Act funding, 23 projects totaling $47.8 million received less than 50 priority
points. RUS should use its established criteria to guide decisions to award funds to worthy
projects nationwide in line with the purposes of the Recovery Act.

We have not yet performed an analysis to determine the extent to which Rural Development is
funding water and waste disposal projects with low priority points that may delay funding of
projects in communities with the greatest need. As a result, we have no conclusions on the
overall impact to the program. Our concern is that Rural Development could modify its project
selection process to ensure that Recovery Act funds are better targeted to communities most
impacted by the recession as well as those having projects with the greatest merit.

We discussed this issue in detail with agency national office officials on March 24, 2009. At that
time, we recommended that RUS establish a threshold for awarding recovery funds to projects
that comply with the purposes of the Recovery Act and only fund those projects with the greatest
need and the highest priority points on a nationwide basis. Agency national officials did not
agree with our recommendation, stating that the funds must be allocated to States according to
statute. RUS officials also stated that pooling allows States to fund projects once they have
obligated their initial allocation. Pooling is a process in which unobligated funds are pooled
from the States at midyear and yearend and then handed out administratively by the RUS
national office on a project-by-project basis. The national office uses priority point scores as
criteria when distributing pooled funds. RUS officials stated that projects with less than 50 points
are unlikely to be funded with pooled funds.

On June 5, 2009, we issued a Fast Report to alert agency management of this issue. In that
report, we made the following recommendation.




   Audit Report 09601-1-At                                                                        11
Recommendation 6
Establish a threshold for awarding recovery funds to projects that comply with the purposes of
the Recovery Act and only fund those projects with the greatest need and the highest priority
points on a nationwide basis.

Agency Response
In a response dated June 26, 2009, the Under Secretary responded that instituting a minimum
point eligibility requirement would prevent otherwise eligible applicants from getting assistance
from Rural Development during a period in which program funds are not limited. Furthermore,
he stated that Rural Development is meeting the requirements of the Recovery Act. The Under
Secretary provided additional support in the five page response disagreeing with the Fast Report
and recommendation. This information addressed topics regarding the use of a minimum point
threshold, the consideration of priority points on a nationwide basis, and the effective targeting
of communities in need.

The agency’s full response to this recommendation is posted on our website with the applicable
Fast Report. This report can be found at:
http://www.usda.gov/oig/recovery/recovery_reports.htm.

OIG Position
We accept management decision for this recommendation. Our decision is based on the fact that
we did not perform specific testing and cannot reference instances where a lower priority project
was funded to the detriment of a higher priority project. We plan to examine this issue further as
we continue our assessment, which was initiated in September 2009, of program activities
related to the Recovery Act.




   Audit Report 09601-1-At                                                                       12
Scope and Methodology

The audit fieldwork was conducted at the RUS national office, and the Tennessee, Alabama, and
Minnesota State Rural Development offices. Our review focused on direct loan and grant funds
obligated between FYs 2005 and 2008. Our review at the three States encompassed $459 million
of the total $5.9 billion in program obligations. We conducted our audit fieldwork from
September 2008 to April 2009.

Initially, we targeted States in the southeast region for review. 18 We selected Tennessee because
it had the second highest direct loan and third highest grant amounts obligated between
FYs 2005 and 2008 in the southeast region. Also, the national office conducted a program
review of Tennessee in October 2007 that highlighted several isolated weaknesses with loan and
grant processing and servicing in the State. We selected Alabama because it had the second
highest level of grant funding in the southeast region and also because the program review
conducted in September 2004 highlighted several weaknesses with loan and grant processing and
servicing. We subsequently selected Minnesota for review because it had the largest application
backlog (according to available RUS program data) of any State—41 water and waste disposal
system projects totaling more than $146 million.

We also reviewed at least two area offices for each State. We selected the area offices with the
highest level of funding between FYs 2005 and 2008. 19 We selected projects for review with the
highest amount of loan and grant funding for the offices we visited.

To accomplish the audit objectives, we:

     ·   Reviewed RUS’ regulations, policies, and procedures for the water and waste disposal
         system loan and grant program, especially those pertaining to eligibility and use of funds.
     ·   Identified applicable internal controls over borrower and grantee eligibility and use of
         funds, and evaluated them in terms of adequacy and effectiveness to (1) ensure that only
         eligible communities which have repayment ability are receiving program funds, and
         (2) ensure that loan funds and grants are being used only for the intended purposes.
     ·   Obtained from RUS a list of all borrowers and grantees for the States selected. Using this
         list, we determined which area offices to visit in each selected State. We interviewed
         RUS and Rural Development officials and other persons as deemed appropriate.
     ·   Examined reports of prior audits and RUS’ program reviews for the water and waste
         disposal system loan and grant program.

To gain an understanding of the Recovery Act’s impact on the water and waste disposal loan and
grant program we:

18
   This audit was in itially a regional audit assigned to the Eastern Region, previously referred to as the Southeast
Region. At the time this review was init iated, the Southeast Region encompassed the States of Alabama, Florida,
Georgia, Kentucky, North Carolina, South Carolina, Tennessee, and the territories of Puerto Rico and the Virgin
Islands.
19
   See exh ibit B for a listing of sites visited.

     Audit Report 09601-1-At                                                                                            13
   ·   Reviewed the Recovery Act along with any related guidance associated with the Act.
   ·   Reviewed Rural Development’s initial plan for providing funding to the States.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




   Audit Report 09601-1-At                                                                       14
Exhibit A: Summary of Monetary Results

 Finding              Description                  Amount                Category
             Grant funding awarded to the
     1                                                            FBPTBU, Deobligation
             City of Crossville                        $800,000
             Excess grant funding awarded                         Questioned Costs,
     2       to Greene County Water and                           Recovery
             Sewer Authority                          1,981,159   Recommended
                                                                  Questioned Costs,
             Excess grant funding awarded
     2                                                            Recovery
             to the Town of Berry
                                                        434,357   Recommended
                                                                  Questioned Costs,
             Excess grant funding awarded
     2                                                            Recovery
             to the Town of Collinsville
                                                        603,400   Recommended
             Excess grant funding awarded                         Questioned Costs,
     2       to the Perry County Water                            Recovery
             Authority                                1,448,145   Recommended
                                                                  Questioned Costs,
             Excess grant funding awarded
     2                                                            Recovery
             to the Town of Somerville
                                                      1,036,100   Recommended
             Excess grant funding awarded                         Questioned Costs,
     2       to the Sumter County Sewer                           Recovery
             Authority                                  673,250   Recommended
             Excess grant funding awarded                         Questioned Costs,
     2       to the West Dallas Water                             Recovery
             Authority                                1,060,200   Recommended
 TOTAL                                               $8,036,611


The above table summarizes the monetary results of the audit report as detailed in Findings 1
and 2. It lists the finding number, description of the finding, dollar amount, and category of
monetary exception.




   Audit Report 09601-1-At                                                                       15
Exhibit B: Sample of Sites Visited


                                    Number of           Loan            Number of          Grant
     State        Area Office
                                     Loans             Amount            Grants           Amount
                   Huntsville          12             $30,390,000           9            $18,185,000
                  Tuscaloosa            7              14,414,000           6             11,185,364
   Alabama
                  Bay Minette           3               5,903,000           3              8,111,900
                 Total                 22             $50,707,000          18            $37,482,264
                   Nashville            6             $18,409,494           5             $2,424,090
                   Knoxville            9              13,343,900           7              3,374,300
  Tennessee
                  Cookeville            1               1,284,000           1                800,000
                 Total                 16             $33,037,394          13             $6,598,390
                  Alexandria            8             $20,652,000           6             $3,185,000
  Minnesota
                   Marshall            13              52,366,000          10             18,340,318
  Obligation
                 Total                 21             $73,018,000          16            $21,525,318
                  Alexandria           10             $23,912,000          10            $11,019,500
  Minnesota
                   Marshall            17              55,596,000          15             24,262,000
  Backlog
                 Total                 27             $79,508,000          25            $35,281,500
 TOTAL                                 86            $236,270,394          72           $100,887,472


The above table lists the sample of sites visited. It provides the State visited, the area office,
number of loans, loan amounts, number of grants, and the grant amounts.




   Audit Report 09601-1-At                                                                           16
Agency’s Response




                            USDA’S




                     Rural Utilities Service




           RESPONSE TO AUDIT REPORT




  Audit Report 09601-1-At                      17
                                   United States Department of Agriculture
                                             Rural Development




September 29, 2010


     SUBJECT:          Office of Inspector General (OIG) Utilities
                       Programs Water and Waste Disposal Loans and
                       Grants (Audit No. 09601-001-AT)


            TO:        Gil Harden
                       Assistant Inspector General
                         for Audit


Attached for your review is a response dated September 20, 2010,
from Jonathan Adelstein, Administrator, Rural Utilities Service.

This response is being submitted for your consideration to reach
management decision on recommendations 1 through 5 in the
subject report.

If you have any questions, please contact Arlene Pitter Bell of
my staff at 202-692-0083.



/S/ John M. Purcell

JOHN M. PURCELL
Director
Financial Management Division


Attachment




                                  1400 Independence Ave, SW • Washington, DC 20250-0700
                                              Web: http://www.rurdev.usda.gov

                                         Committed to the future of rural communities.

                                   “USDA is an equal opportunity provider, employer and lender.”
       To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                      Washington, DC 20250-9410 or call (800) 795-3272 (voice) or (202) 720-6382 (TDD).
                                          United States Department of Agriculture
                                                    Rural Development




       September 20, 2010


       TO:        Gil H. Harden
                  Acting Assistant Inspector General for Audit


THROUGH: John M. Purcell
         Director
         Financial Management Division


     FROM: Jonathan Adelstein /S/ James R. Newby
           Administrator
           Rural Utilities Service


 SUBJECT:         Utilities Programs – Water and Waste Disposal Loans and Grants
                  Audit Number 09601-001-AT

This memorandum is our response to the OIG Audit number 09601-001AT draft report
dated March 11, 2010. We appreciate the OIG’s review of the Water and Waste Loan
and Grant Program and your general finding that our internal controls are adequately
designed and operating. The audit did identify findings related to loan processing in two
states, Tennessee and Alabama. The Agency responses are below:

Recommendation 1

Require the borrower to conduct a special income survey for the project to determine the
median household income of the service area and use this information to determine the
loan interest rate and grant amount applicable for this project.

Recommendation 2
If a special income survey results in an adjustment to median household income, adjust
the loan rate accordingly and require the borrower to reimburse RUS for any loss of
interest revenue.

Recommendation 3
                                 1400 Independence Ave., S.W. Washington, DC 20250-0700
                                             Web: http://www.rurdev.usda.gov

                                          Committed to the future of rural communities.

                                    “USDA is an equal opportunity provider, employer and lender.”
        To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                       Washington, DC 20250-9410 or call (800)795-3272 (voice) or (202) 720-6382 (TDD).
If the special income survey shows the borrower to be ineligible for the grant, deobligate
or recover the $800,000 in grant funds, as appropriate.
Response to Recommendations 1-3

Conducting an income survey for this project would be difficult and costly to the Agency
and the community. It has been more than 2 years since the underwriting on this loan
was conducted. It would be difficult to conduct an income survey at this point that would
accurately reflect incomes at that time. Factors, such as the downturn in the economy
and the housing market, changes in residents since 2008, and in-migration of retirees to
this community from other parts of the country would likely impact the results of the
survey. The Agency cannot require the applicant to conduct and pay for the survey;
therefore, the cost of any such undertaking would be incurred by the Agency. Typically,
an income survey approved by USDA Rural Development would require a sampling of
80 percent of the property owners in the area to be served. Associated survey costs could
be significant.

Independent of the audit findings, the Agency was notified that, due to a favorable
bidding climate, bids received on the project were lower than anticipated and that the
grant funds for the project will not be needed. Accordingly, those funds have been
deobligated. In addition, we have reviewed the case file and believe that that appropriate
interest rate was offered. 1

Given the deobligation of grant funds, the Agency’s review and the cost and complicating
factors associated with a survey more than 2 years after the original underwriting, we
would offer an alternative to conducting a survey. As an alternative to the
recommendations presented, the Agency would propose to issue additional staff guidance
on the appropriate circumstances for conducting income surveys. This guidance will be
drafted and delivered to staff no later than March 31, 2011. The Agency will also
incorporate this new guidance into its training course content.

1
 The State Nonmetropolitan Household Income (SNMHI) for TN is $37,269 according to the 2000 census.
This project included a total of 1,687 water users located in two counties; 748 users in Cumberland County
(44.34 percent of total users of 1,687) and 939 users (55.66 percent of total users of 1,687) in Putnam
County. The 2000 census indicates Putnam County census tract’s MHI is $28,811 with a population of
4,956. The 2000 MHI census for Cumberland County census tract is $27,929 with a population of 6,553.
Using this method and percentage of users for the new system, it was determined the MHI for the project
area was $28,321.

RUS Instruction 1780.10 (c) states “Grants may not be made in excess of the following percentages of the
RUS eligible project development costs. Facilities previously installed will not be considered in
determining the development costs.

         1) 75 percent when the MHI of the service area is below the higher of the poverty line or 80% of
            the state nonmetropolitan median income and the project is necessary to alleviate a health or
            sanitary problem.
         2) 45 percent when the median household income of the service area exceeds the 80 percent
            requirements described in paragraph (c)(1) of this section but is not more than 100 percent of
            the statewide nonmetropolitan median household income. “

Whether one uses a weighted MHI as described above or the higher of the two MHI incomes for this
proposal, the MHI would still qualify for the intermediate interest rate and 45 percent grant eligibility.
Recommendation 4

Strengthen program guidance to include language which specifies what documentary
evidence is required to prove a project is necessary to alleviate a health or sanitary
problem.

Response to Recommendation 4

The Agency will draft revised guidance regarding the specific documentary evident that
is required to prove a project is necessary to alleviate a health or sanitary problem. This
guidance will be delivered to staff no later than March 31, 2011. The Agency will also
incorporate this new guidance into its training course content.

Recommendation 5

Review the cases above and determine if the project was necessary to alleviate a health or
sanitary problem. If the Agency review concludes the projects were not necessary to
alleviate the cited problems, deobligate the $7,236,611 in grant funds for the seven
projects and require the applicants to reimburse RUS for any excessive grant funds
expended.

Response to Recommendation 5

The Agency will review the cases above and determine if the project was necessary to
alleviate a health or sanitary issue. The review will be completed by October 31, 2010.
If the Agency determines that the project was not necessary to alleviate a health or sanity
issue, the Agency will seek reimbursement for funds as necessary.

Conclusion
Rural Development is committed to administering the Water and Waste Disposal Loan
and Grant Program effectively and to ensure that funds are appropriately utilized pursuant
to statute and regulation. Again, we are pleased with your general finding that our
internal controls are adequately designed and operating. We will conduct the requested
file reviews and enhance our staff guidance as necessary to improve delivery of the
program.
